No. _ _ _ _ __

Jn ~be
~upteme '<!Court of tlje mntteb ~tate~
ANDREW HARGETT, JR.,

Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 31st day of July, 2020, I
filed the original and ten (IO) copies of the Petition of Writ of Certiorari with
Appendix and Motion for Leave to Proceed In Forma Pauperis with the United
States Supreme Court via UPS Ground Transportation. I further certify that I
served one copy of said Petition via UPS Ground Transportation addressed to the
following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530
Jennifer May-Parker

OFFICE OF THE UNITED STATES ATTORNEY

150 Fayetteville Street, Suite 2100
Raleigh, North Carolina 27601
Counsel for Respondent

Shelly N. an on
Gibson Moore Appellate Services, LLC
P.O. Box 1460
Richmond, VA 23218

For:
Kelly Margolis Dagger
Counsel of Record
Paul K. Sun, Jr.
Ellis & Winters LLP
Post Office Box 33550
Raleigh, North Carolina 27636
(919) 865-7000
Counsel for Petitioner

Signed and subscribed before me on this 31st day of July, 2020

~{£~
Notary

Bradrord E. Moore
NOTARY PUBLIC
Commonwealth or Virginia
Reg, #7241026
commission Exp. 4/30/2021

.

